ECONOMICALLY DISADVANTAGED STATUS OF AN 8(a)
      PROGRAM PARTICIPANT’S OWNER

             REPORT NUMBER 6-32

             SEPTEMBER 25, 2006
                     U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                            WASHINGTON, D.C. 20416



                                                         MANAGEMENT ADVISORY
                                                               REPORT
                                                     Issue Date: September 25, 2006
                                                     Report Number: 6-32

TO:           Joseph P. Loddo
              District Director, Washington Metropolitan Area District Office

              Luz Hopewell
              Associate Administrator for Business Development

              /s/ original signed
FROM:         Debra S. Ritt
              Assistant Inspector General for Auditing

SUBJECT:      Economically Disadvantaged Status of an 8(a) Program Participant's
              Owner

        The Office of Inspector General (OIG) received an anonymous complaint
regarding a company in the 8(a) Business Development program. The complainant stated
that the company received an unfair share of 8(a) contract awards from the Small
Business Administration (SBA). While researching this complaint, the OIG determined
that the company’s owner is the future beneficiary of a trust, a portion of which was
valued at [EXEMTION 4].

         In reviewing the complaint, the OIG assessed whether the trust should be
considered the owner’s asset for the purpose of determining whether the owner is
economically disadvantaged for 8(a) program eligibility. We reviewed the company’s
8(a) files and a prior audit report on the company to obtain background concerning the
owner and the company. We also reviewed the Small Business Act, 13 Code of Federal
Regulations (CFR), the 8(a) program Standard Operating Procedures (SOP), the Small
Disadvantaged Business Training Manual, and interviewed agency officials.

BACKGROUND

        SBA’s 8(a) program was created to help small businesses owned by socially and
economically disadvantaged individuals compete in the American economy and access
the federal procurement market. Socially disadvantaged individuals are those who have
been subjected to racial or ethnic prejudice or cultural bias within American society
because of their identities as members of groups and without regard to their individual
qualities. Economically disadvantaged individuals are socially disadvantaged individuals
whose ability to compete in the free enterprise system has been impaired due to
diminished capital and credit opportunities as compared to others in the same or similar
line of business who are not socially disadvantaged.

        In considering diminished capital and credit opportunities, SBA considers the
personal financial condition of any individual claiming disadvantaged status, including
personal income for the past 2 years (including bonuses and the value of company stock
given in lieu of cash), personal net worth, and the fair market value of all assets, whether
or not encumbered. SBA will also consider the financial condition of the applicant
compared to the financial profiles of small businesses in the same primary industry
classification, or, if not available, in similar lines of business.

        Program participants can receive substantial benefits, including sole-source
contracts, business development grants, low-interest loans, and free management
consulting services. The 8(a) program is not intended to assist companies owned and
controlled by socially disadvantaged individuals who have accumulated substantial
wealth, have unlimited growth potential, or who can obtain access to financing, markets
and resources. For example, a participant is ineligible to remain in the 8(a) program if its
disadvantaged owner’s net worth (excluding the value of his/her personal residence and
the equity in the 8(a) company) equals or exceeds $750,000. The 8(a) program
requirements are contained in 13 CFR § 124.

RESULTS

         The company’s owner is the future recipient of a trust, a portion of which is
valued at [EXEMPTION 4]. SBA was unaware of the trust's existence when making
initial and continuing 8(a) eligibility determinations for the company. The trust has
provided the owner with [EXEMPTION 4]in capital and the company with
[EXEMPTION 4]in credit. Despite the fact that capital and credit opportunities are
available to the owner, the trust is not currently considered an asset since the company's
owner does not have direct access to the funds most of the time. While the trustees must
authorize the release of funds to the owner, clearly a loophole exists in the regulations
that allows companies owned by individuals that have access to capital and credit, i.e.
non-disadvantaged, to obtain 8 (a) contracts. Participation by non-disadvantaged
individuals reduces the opportunities available to those who are legitimately
disadvantaged, diverts the energy and efforts of the SBA, and could undermine public
support for the program. While our review focused on one company, and we do not
know if the issues raised in this report are a widespread problem, SBA should determine
whether changes in regulations are needed to address contingent assets, such as a trust.

       The owner's economic disadvantage status will change when he receives one-
eighth of the value of the trust on [EXEMPTION 6]. At that time, SBA will need to
make a determination on the participant's status and program eligibility.


                                             2
The Trust has made a Direct Payment to the Owner and Extended Credit to the
Company

        The President and sole owner of the company is the future beneficiary of an
irrevocable trust, a portion of which is valued at [EXEMPTION 4]. The trust is
managed by three trustees, two of whom are apparently related to the owner, who are
responsible for investing the trust funds as well as maintaining the fund, (i.e., paying
taxes and professional fees). According to the trustees, the remainder of the trust is
“illiquid,” and could not be valued. The trustees must authorize the release of funds to
the owner, except when a contribution is made to the trust. The owner can withdraw the
entire contribution within 30 days of the trust’s receipt of the contribution.

        Over the past 7 years, the trustees paid the owner [EXEMPTION 4], loaned the
owner’s 8(a) company [EXEMPTION 4], and guaranteed an [EXEMPTION 4]line of
credit for the 8(a) company with the trust’s assets. On [EXEMPTION 6], one-eighth of
the trust fund balance, or approximately [EXEMPTION 4]will be distributed to the
company's owner. When this distribution occurs, the owner's net worth should exceed
the $750,000 8(a) program limit. The owner will receive additional distributions from
the trust until 2017, when the trust will be dissolved and the remaining value disbursed to
the owner.

The Trust Is Not Considered the Owner’s Asset at this Time Under SBA
Regulations

        For continued 8(a) eligibility after admission to the program, the owner’s net
worth must be less than $750,000. In determining such net worth, SBA excludes the
owner's interest in the 8(a) company and the equity in his/her primary personal residence.
Further, based on the terms of the trust, the owner cannot assign any of his interests in
any distributions from the trust until they occur. Because the owner does not have direct
control over the trust’s assets at this time, the trust is considered a contingent asset for
purposes of determining the owner’s net worth. Although the 8(a) SOP directs that
contingent liabilities are not considered in determining net worth, it does not address
contingent assets. An SBA official who performs 8(a) eligibility reviews and
certifications stated that SBA cannot make a strong case that the company has access to
capital and credit based solely on the trust providing the 8(a) company a[EXEMPTION
4]loan and guaranteeing a [EXEMPTION 4]$850,000 line of credit because these
amounts were not significant for an industry with a size standard exceeding $20 million.
In determining whether a company has access to capital and credit, we were told that
SBA looks at the totality of the circumstances.

        SBA examines four factors in considering diminished capital and credit
opportunities: the owner’s net worth, the owner’s total assets, the owner’s personal
income, and the company’s financial condition compared to businesses in the same or
similar line of business. The trust, a contingent asset, is not included in determining any
of these factors. If the trust’s assets are not included, the owner and the company do not



                                             3
exceed the limits on any of these factors. Therefore, according to SBA’s regulations the
owner has diminished capital and credit opportunities and is economically disadvantaged.

Excluding Contingent Assets When Determining Access to Capital and Credit Can
Undermine the Integrity of the Program

        The 8(a) program was not developed to assist socially disadvantaged individuals
who have overcome impediments to obtaining access to financial markets and resources.
However, it is evident that the trust provided the owner and the 8(a) company access to
capital and credit, which small business entrepreneurs without a “contingent asset” do not
have.

        Companies owned by individuals who have indirect access to capital and credit
can be eligible for the 8(a) program because SBA regulations do not address owners who
are in this situation. While the access is indirect, at least in this instance, it provided
actual capital and credit to the owner and the company. It is entirely possible that, if
needed, the trust would continue to provide the owner and/or the company significant
additional capital and credit. As a result, the company receives the benefit of
participating in the 8(a) program, although the company and its owner have access to
capital and credit. Consequently, this company is eligible to receive 8(a) contracts that
could have gone to other 8(a) companies that do not have this competitive advantage.

       While this situation may be an isolated situation, SBA should determine whether
contingent assets need to be addressed in its regulations concerning economic
disadvantage.

RECOMMENDATIONS

We recommend that the District Director of the Washington Metropolitan Area District
Office:

       1. Determine whether the company’s owner is economically disadvantaged when
          he receives one-eighth of the trust’s value on [EXEMPTION 6].

We recommend that the Associate Administrator for Business Development:

       2. Determine whether contingent assets such as trusts should be considered when
          assessing economic disadvantage and whether any regulation changes on this
          are needed.

SBA MANAGEMENT’S RESPONSE AND OIG’S EVALUATION OF
MANAGEMENT’S RESPONSE

        The District Director of the Washington Metropolitan Area District Office
concurred with the OIG recommendation addressed to him. The District Director agreed
to determine whether the company’s owner is economically disadvantaged when he



                                             4
receives one-eighth of the trust’s value on [EXEMPTION 6]. His proposed action is
responsive to recommendation 1. The District Director’s response is included as
Appendix 1.

       The Associate Administrator for Business Development’s response stated that she
would determine whether contingent assets are addressed in the regulations and will
include the issue in training and possibly an update to 13 CFR § 124 by September 30,
2007. This proposed action is responsive to recommendation 2. The Associate
Administrator’s response is included as Appendix 2.

                                     *****
        The recommendations in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The recommendations are subject to final action by your
offices in accordance with existing Agency procedures for audit follow-up and resolution.

       Should you or your staff have any questions, please contact Robert G. Hultberg,
Director, Business Development Programs Group at (202) 205-[EXEMPTION 2]




                                           5
                            Appendix 1




              EXEMPTION 6



EXEMPTION 6
                               Appendix 2




EXEMPTION 6




                            EXEMPTION 6




              EXEMPTION 2
Appendix 2
                                                                                                                       Appendix 3



                                                 REPORT DISTRIBUTION


Recipient                                                                                                       No. of Copies

Associate Administrator for Field Operations..... ....................................................1

Associate Deputy Administrator for Government Contracting
and Business Development .....................................................................................1

Deputy Associate Deputy Administrator for Government Contracting
and Business Development ......................................................................................3

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

U.S. Government Accountability Office .................................................................2
